           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  RECOVERY ACT EXCHANGE CONTRACT
  WITH LOVELACE CLINIC FOUNDATION
        CONTRACT SS00-10-60030

     October 2011   A-15-11-11157




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 13, 2011                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Recovery Act Exchange Contract with Lovelace Clinic Foundation -
           Contract SS00-10-60030 (A-15-11-11157)


           OBJECTIVE
           Our objectives were to determine whether (1) the Social Security Administration (SSA)
           properly accounted for American Recovery and Reinvestment Act of 2009 (Recovery
           Act) funds, (2) SSA achieved its objective of requesting and receiving medical
           information through health information technology (HIT), (3) the contractor complied
           with the contract terms and applicable regulations, and (4) SSA personnel properly
           monitored the contract.

           BACKGROUND
           On February 17, 2009, the President signed the $787 billion Recovery Act into law. 1
           The Recovery Act has three immediate goals: (1) create new and save existing jobs,
           (2) spur economic activity and invest in long-term growth, and (3) foster unprecedented
           levels of accountability and transparency in Government spending. 2

           A section of the Recovery Act, the Health Information Technology for Economic and
           Clinical Health Act (HITECH), provided $19.2 billion to increase the use of Electronic
           Health Records 3 (EHR) by physicians and hospitals. As a result, the Recovery Act
           HITECH provided that up to $40 million allocated to SSA may be used for heath
           information technology research and activities to facilitate the adoption of electronic
           records in disability claims. 4

           1
               Pub. L. No. 111-5, 123 Stat. 115 (2009).
           2
               http://www.recovery.gov/About/Pages/The_Act.aspx.
           3
             HITECH Act, Pub. L. No. 111-5, Title XXX, § 3000(13), 123 Stat. 226, 229 (2009). A Qualified EHR is
           an electronic record of health-related information on an individual that includes patient demographic and
           clinical health information, such as medical history and problems lists.
           4
               Pub. L. No. 111-5, 123 Stat. 115, 185-186 (2009).
Page 2 - The Commissioner


Health Information Technology5

SSA will process almost 3 million disability applications this year. This includes cases
processed at the initial and appeal levels. To process applications, SSA makes over
15 million patient-authorized requests for medical information from health care providers
at all levels of the disability adjudication process. According to SSA, on average, it
takes more than 2 months to process an initial disability application. SSA spends much
of that time waiting for medical records. That timeframe increases dramatically at the
appeals levels. 6

SSA also acknowledged significant challenges because of increased growth in the
number of disability applications, the complexity of applications, outdated policies and
procedures, and limited resources. 7 One of the ways SSA met this challenge was by
collaborating with medical providers to request and receive medical information in a
standardized electronic data format through the Nationwide Health Information Network 8
(NWHIN). 9 HIT allowed SSA to automate the authorized request and receipt of data
and analyze received data electronically. SSA can reduce the time it takes to receive
medical information to minutes as well as the amount of time to review and make a
decision on a disability claim. 10

SSA Awarded HIT Contracts

In August 2008, SSA partnered with Beth Israel Deaconess Medical Center in Boston,
Massachusetts, to provide a patient-authorized electronic medical information release
and accept electronic medical information in return. In February 2009, SSA
collaborated with MedVirginia on the first production use of the NWHIN to request and
receive electronic medical information.

In February 2010, SSA used Recovery Act funds to award 15 fixed-price contracts to
expand the number of healthcare providers participating in the NWHIN. This will give
providers the capability to receive a standardized electronic request for medical records
along with a patient’s authorization. Medical providers will then respond automatically
to SSA’s requests with structured medical information. This effort’s goal is a more
efficient and effective medical evidence gathering process in support of the decision-

5
    HIT allows secure exchange of health information between healthcare providers and their customers.
6
    Contract number SS00-10-60030, Part 1, Section B-1 – Statement of Work, Overview 1.1.
7
    SSA, Annual Performance Plan for FY 2011 and Revised Final Performance Plan for FY 2010.
8
  The U.S. Department of Health and Human Services, Office of the National Coordinator establishes
governance for the NWHIN. NWHIN provides a secure, nationwide, interoperable health information
infrastructure that will connect providers, consumers, and others involved in supporting health and
healthcare.
9
    Contract number SS00-10-60030, Part 1, Section B-1 – Statement of Work, Overview 1.3.
10
     SSA, MEGAHIT Information http://ods.ssahost.ba.ssa.gov/megahit/index.htm.
Page 3 - The Commissioner


making process for disability claims. Of the 15 contracts, SSA later terminated 3. 11 See
Appendix B for the list of the HIT contractors.

Lovelace Clinic Foundation

On February 1, 2010, SSA awarded a HIT contract to Lovelace Clinic Foundation (LCF).
We selected the LCF contract for audit because, in comparison to other HIT contracts,
the LCF contract had progressed furthest. 12 The firm-fixed-price contract was for about
$1.1 million. 13 The contract measures its progress by accomplishing certain tasks
referred to as milestones. This contract consists of three milestones that represent a
portion of the total contract. The breakdown of the milestones is as follows.

                       Table 1 - Lovelace Clinic Foundation Milestones
                                                                                  Percent of Total
      Milestone*                      Task Description                             Contract Price
                    Submission and approval of Sample Continuity of
                    Care Document and verified certification of Electronic
           1        Health Record application.                                            15
                    Submittal and approval of Verification Continuity of
           2        Care Documents.                                                       25
                    Production submission of up to 5 percent of expected
                    annual volume, complying with specifications outlined
           3        in the Statement of Work.                                              60
                    Total                                                                 100
      *LCF must successfully complete each milestone to receive payment for that milestone.

LCF must complete the three milestones to meet the contract’s objectives. However,
the contract does not have specific due dates for each milestone. The contract requires
that LCF complete all the milestones within 1 year from the start date stated in the
notice to proceed 14 (thus June 3, 2011). As of the date of this report, LCF had
completed Milestone 1 and was working on Milestone 2; therefore, the scope of our
audit tests, results, conclusions, and recommendations relate only to
Milestones 1 and 2.




11
  SSA terminated contracts with Memorial Hospital Foundation, CareSpark, Inc., and CalRHIO. See
Appendix B for further details of termination.
12
  We audited only the LCF contract. We did not review or apply audit procedures to any other medical
providers awarded Recovery Act dollars for HIT.
13
     Contract number SS00-10-60030.
14
  The Notice to Proceed is a Government notice that directs the contractor to proceed with the
performance of the work called for by a contract. LCF’s start date per its Notice to Proceed was
June 3, 2010.
Page 4 - The Commissioner


RESULTS OF REVIEW
Our audit determined that SSA properly accounted for Recovery Act funds related to
this contract. In addition, we determined that the LCF contract is progressing; however,
SSA stated LCF’s progress is slower than planned but expects that LCF will
successfully complete this contract. Specifically, we determined that LCF performed all
tasks required by the contract and complied with the contract terms and applicable
regulations for Milestone 1. Additionally, we verified there were 2.31 jobs created or
retained for the third quarter of Calendar Year 2010, and LCF reported the jobs in a
manner consistent with Office of Management and Budget guidance. Furthermore, we
determined that SSA personnel were properly monitoring the contract.

LCF Progress

Milestone 1, Sample Continuity of Care Document

In October 2010, LCF completed Milestone 1 by successfully creating a sample
Continuity of Care Document (CCD) and obtaining a valid EHR certification. Both were
submitted to, and approved by, SSA. A CCD is a data record that allows health
providers to share clinical summary information about patients to referring physicians,
pharmacies, electronic medical record systems, and other providers. The CCD is
critical for the successful completion of the three milestones. SSA ensured that LCF
was complying with the contract’s terms by ascertaining that the medical information
received via the CCD was sufficient to support SSA’s disability programs. At the
completion of Milestone 1, SSA paid LCF $162,409, 15 percent of the total contract
price. Refer to Table 2 for a summary of LCF’s progress on the three milestones.

Milestone 2, Verification CCD

SSA is verifying that the electronic health information in the CCDs comply with the EHR
Content Checklist. As of the date of this report, LCF had not completed Milestone 2;
therefore, SSA had not paid LCF for this milestone in accordance with the contract
terms. On May 12, 2011, LCF requested a no-cost extension of 150 days extending the
period of performance to November 2, 2011. LCF requested the extension to ensure it
had enough time to go into production with SSA and meet the final milestone.
Furthermore, LCF stated that during the project, it experienced delays that were
unanticipated, caused by factors beyond LCF’s control. Refer to Table 2.

Milestone 3, Production CCD

As of the date of this report, LCF had not started Milestone 3, Production CCD. The
completion of Milestone 2 is required before LCF can begin Milestone 3. Refer to
Table 2.
Page 5 - The Commissioner


                        Table 2 - LCF's Progress of Milestones

     Milestone 1 - Sample CCDs

      Milestone 2 - Verification CCDs

      Milestone 3 - Production CCDs

                                        0%   10% 20% 30% 40% 50% 60% 70% 80% 90% 100%



CONCLUSION
We determined SSA properly accounted for Recovery Act funds related to this contract
and was receiving medical information via HIT. We also determined that LCF was
performing all tasks required by the contract and complying with the contract terms and
applicable regulations. However, SSA stated that LCF’s progress was slower than
expected; therefore, SSA modified this contract to extend LCF’s period of performance
from June 3 to November 2, 2011. In addition, as of the date of this report, SSA had
paid LCF $162,409 for completion of Milestone 1, which is 15 percent of the total
contract price. Furthermore, we determined that SSA personnel were properly
monitoring the contract.

AGENCY COMMENTS
SSA agreed with our conclusion (see Appendix D).




                                                 Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Social Security Administration Contractors Awarded Health Information
             Technology Contracts
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CCD            Continuity of Care Document

EHR            Electronic Health Record

FAR            Federal Acquisition Regulations

HIT            Health Information Technology

HITECH         Health Information Technology for Economic and Clinical
               Health Act
LCF            Lovelace Clinic Foundation

NWHIN          Nationwide Health Information Network

OIG            Office of the Inspector General

Recovery Act   American Recovery and Reinvestment Act of 2009

SSA            Social Security Administration
                                                                                           Appendix B
Social Security Administration Contractors Awarded
Health Information Technology Contracts
                          Current Health Information Technology Contractors
                                    Contractor                                          Contract Amount
    Center for Healthy Communities, Wright State University, Healthlink                          $999,000
    Central Virginia Health Network/MedVirginia                                                $1,139,000
    Community Health Information Collaborative                                                   $977,000
    Douglas County Individual Practice Association                                               $502,000
    EHR Doctors, Inc.                                                                            $750,000
    HealthBridge                                                                               $1,400,000
    Lovelace Clinic Foundation                                                                 $1,083,000
    Marshfield Clinic Research Foundation                                                        $923,000
    Oregon Community Health Information Network                                                  $284,000
    Regenstrief Institute, Inc.                                                                  $350,000
    Science Applications International Corporation                                             $1,587,000
    Southeastern Michigan Health Association                                                   $2,988,000
       Total Contract Dollars                                                                 $12,982,000

                   Health Information Technology Contracts the Agency Terminated
                                  Contractor                               Contract Amount

    California Regional Health Information Organization (Note 1)                                $1,625,000
    CareSpark (Note 2)                                                                          $1,363,000
    Memorial Hospital Foundation & Memorial Hospital of Gulfport Foundation,
    Inc. (Note 3)                                                                               $1,100,000
       Total Contract Dollars                                                                   $4,088,000

Note 1: SSA terminated the contract with California Regional because this medical provider could not fully meet the
contract requirements. Information about this termination can be found at Recovery.gov
http://www.recovery.gov/Transparency/agency/reporting/agency_reporting2.aspx?agency_code=28&dt=06/30/2011.
                                                                         1
Note 2: SSA terminated the contract with CareSpark, Inc. for convenience because this medical provider could not
fully meet the terms of the contract. Information about this termination of can be found at Recovery.gov
http://www.recovery.gov/Transparency/agency/reporting/agency_reporting2.aspx?agency_code=28&dt=03/18/2011.
Note 3: SSA terminated contract with Memorial Hospital Foundation because this medical provider could not fully
meet the contract requirements. Information about this termination can be found at
Recovery.govhttp://www.recovery.gov/Transparency/agency/reporting/agency_reporting2.aspx?agency_code=28&dt
=05/21/2010.



1
  The contracting officer should exercise the Government’s right to terminate a contract for commercial
items either for cause or convenience only when such a termination would be in the best interests of the
Government. FAR 12.403(b), Termination for cause allows the Government to terminate a contract due
to nonperformance. See FAR 12.403(c). Termination for convenience also allows for termination due to
nonperformance; however, the contractor shall be paid. FAR 12.403(d) (1). The FAR states “Termination
for convenience” means the exercise of the Government’s right to completely or partially terminate
performance of work under a contract when it is in the Government’s interest. “Termination for default”
means the exercise of the Government’s right to completely or partially terminate a contract because of
the contractor’s actual or anticipated failure to perform its contractual obligations. FAR 2.101.
                                                                          Appendix C

Scope and Methodology
To accomplish our objectives, we reviewed Lovelace Clinic Foundation’s (LCF)
Statement of Work, which states all services LCF is to perform. Based on our review of
the Statement of Work, we determined the requirements of LCF and the Social Security
Administration (SSA) and determined via inquiry and observation whether the contract
requirements were performed. LCF must complete the three milestones to meet the
contract’s objectives. As of the date of this report, LCF had completed Milestone 1 and
was working on Milestone 2; therefore, the scope of our audit tests, results, conclusions,
and recommendations relate only to these milestones. This contract is composed of the
following major areas.
   Minimum Requirements. LCF must include providers/facilities that have an
    Electronic Health Record (EHR) application installed and in use. The EHR is
    certified by the Certification Commission for Healthcare Information Technology or
    another U.S. Department of Health and Human Services’ recognized certification
    body.
   Contractor Tasks. LCF shall develop a system to generate a Continuity of Care
    Document (CCD) that conforms to the most current industry standards. LCF shall
    adhere to all appropriate privacy policies and the governance model for the
    Nationwide Health Information Network (NWHIN).
   Contractor Deliverables. LCF must deliver to SSA a project plan, a sample CCD,
    a verified CCD, object identifiers, URL addresses, a digital certificate, a certificate of
    receipt of the production CCD through the NWHIN gateway, and production CCDs.
 SSA Tasks. SSA shall ensure LCF has delivered and performed specific tasks by
    performing (1) verification of the sample CCD, (2) verification testing of the
    verification CCDs, (3) interoperability testing, (4) validation testing, (5) acceptance
    testing, (6) integration testing, (7) production release, and (8) evaluation of
    production CCDs.
 Post Award Meeting. Within 15 business days after receipt of Notice to Proceed,
    LCF and appropriate SSA staff shall attend a post-award meeting to discuss and
    ensure mutual understanding relative to the administration of the contract.
 Project Management. LCF shall provide a Project Manager to conduct overall
    management coordination and be the central point of contact for overall performance
    of work under the contract.
 Reporting Requirements. LCF shall provide monthly status reports, weekly project
    reports, and documentation of weekly status calls in electronic format to SSA.



                                              C-1
 Federal Acquisition Regulations (FAR) Clauses. This contract incorporates, but
      is not limited to be in accordance with FAR 12.301 (a)(3), 12.302 and 52.212-4.
 Security And Suitability. The Federal Information Security Management Act of
  2002 (Title III, Pub. L. No. 107-347) and Office of Management and Budget policy
  (through Circular A-130, Appendix III) require that all agency employees, as well as
  contractor and subcontractor employees working under agency service contracts,
  receive periodic training in computer security awareness and accepted computer
  security practices. Following contract award, LCF shall ensure that all employees
  performing under this contract have signed the security bulletin entitled “SSA
  Security Awareness: Contractor Personnel Security Certification.” This requirement
  also applies to LCF employees added to the contract after contract performance has
  commenced. 1
 Additional Agency Specific Terms and Conditions. SSA must follow these
  specific terms and conditions of the contract: (1) protection of confidential
  information, (2) protecting and reporting the loss of personally identifiable
  information, (3) Federal Information Security Management Act and Agency Privacy
  Management, (4) designation of Government contract specialist, (5) designation of
  Contracting Officer’s technical representative, (6) technical direction, (7) contract
  administration, (8) removal from duty, and (9) contractor performance reviews and
  reports.

Job Creation

In addition, the Recovery Act requires that the contractor calculate the number of jobs
created or retained. 2 Therefore, we verified the number of jobs reported as created or
retained by LCF as of the third quarter of Calendar Year 2010 (July 1 to
September 30, 2010). 3

We determined that the data used in this audit were sufficiently reliable given the audit
objectives and intended use of the data. The SSA components responsible for
providing data for this audit were the Offices of the Chief Information Officer, Disability
Systems, and Disability and Health Information Systems. We performed our audit at
SSA Headquarters in Baltimore, Maryland, from January to March 2011. We conducted
this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

1
 The Agency determined that the standard suitability requirements were not necessary because LCF will
not be accessing SSA’s systems—LCF will be providing the same documentation SSA already has, but in
a new format. Therefore, SSA decided the Homeland Security Presidential Directive – 12 regulations did
not apply.
2
    Pub. L. No. 111-5, Title XV, § 1512(c), 123 Stat. 286-288 (2009).
3
 We selected the third quarter of Calendar Year 2010 (July 1 to September 30, 2010) because at the
start of our fieldwork it was the latest quarter posted to https://www.federalreporting.gov/federalreporting/.

                                                     C-2
                  Appendix D

Agency Comments
                                             SOCIAL SECURITY

MEMORANDUM


Date:      August 31, 2011                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis              /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Recovery Act Exchange Contract With Lovelace
           Clinic Foundation – Contract SS00-10-60030" (A-15-11-11157)--INFORMATION



           Thank you for the opportunity to review the draft report. We agree with the report’s
           findings/conclusions and have no additional comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager

   Ronald Anderson, Acting Audit Manager

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-15-11-11157.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
